~" ~
 ....~,..VIC£S.ÚS.




( f:
'..
  '..
        :.~r4JO
                         DEPARTMENT OF
                         DEPARTMENT OF HEALTH
                                       HEALTH &.
                                              &. HUMAN SERVICES
                                                       SERVICES                                                            Office
                                                                                                                           Office of
                                                                                                                                  of Inspector



                                                                                                                           Washington,
                                                                                                                                      Inspector General
                                                                                                                                                General



                                                                                                                                       D.C. 20201
                                                                                                                           Washington, D.C. 20201




                                                                      MAR
                                                                      MAR-4   2009
                                                                          -4 2009


                  TO:                 Charlene Frizzera
                                      Acting Administrator
                                      Centers for Medicare &
                                                           & Medicaid Services


                  FROM:                 OSePhE.~
                                        OSePhE.~
                                      Deputy Inspector General for Audit Services


                  SUBJECT:            Review
                                      Review of of Medicare
                                                   Medicare PaymentsPayments
                                                                     to Managed Care to
                                                                                     PlansManaged
                                                                                          on Behalf of 
 Care Plans on Behalf of Deceased

                                      Enrollees (A-07-07-01046)


                  The attached final report provides the results of
                                                                 of our review of
                                                                               of Medicare payments to managed
                                behalf of
                  care plans on behalf of deceased enrollees.

                  The Balanced Budget Act of 1997,                 1997, Public
                                                                            Public Law  Law 105-33,
                                                                                                 105-33, established
                                                                                                              established Medicare
                                                                                                                           MedicarePart
                                                                                                                                    Par C, which
                  offers     Medicare
                  offers Medicare            beneficiaries
                                  beneficiaries managed care optionsmanaged
                                                                    for health carecare    options
                                                                                    coverage. Section 201 of 
health care coverage. Section 201 of the
                                                                                                        for
                  Medicare Prescription Drug, Improvement, and Modernization Act of                                       of 2003 revised Medicare
                  Part C and established the Medicare Advantage program.

                  The Centers for Medi~are & Medicaid Services (CMS) makes payments at the beginning of              of each
                  month to Medicare Advantage organizations for medical services provided to individuals
                               Medicare Advantage
                  enrolled in Medicare   Advantage plans.
                                                    plans. After
                                                           After an
                                                                 an enrollee
                                                                     enrollee dies,
                                                                              dies, the last
                                                                                         last allowable
                                                                                               allowable payment is for
                                                   died. CMS
                  the month in which the enrollee died.  CMS hashas systems
                                                                    systems that
                                                                             that identify
                                                                                  identify deceased
                                                                                             deceased enrollees to
                  initiate disenrollment and prevent improper payments made to Medicare Advantage
                                                following the
                  organizations for the months following   the enrollees' deaths. For
                                                                                    Forthe
                                                                                        theperiod
                                                                                             periodJanuary
                                                                                                     January2003 2003
                  through April 2007,
                                  2007, approximately 1.7 million
                                                           milion Medicare
                                                                   Medicare enrollees
                                                                              enrollees (as
                                                                                          (as identified
                                                                                              identified onon the Social
                  Security Administration's (SSA)
                                             (SSA) systems)
                                                    systems) who
                                                              who had
                                                                   had at
                                                                        at some
                                                                           some point
                                                                                 point been
                                                                                        been enrolled
                                                                                                enrolled in
                                                                                                          in aa Medicare
                                                                                                                Medicare
                  Advantage organization died.

                  Our objective was to determine whether CMS made payments on behalf
                                                                                  behalf of
                                                                                         of deceased Medicare
                  enrollees to Medicare Advantage organizations for coverage periods after the enrollees'
                                                                                               enrollees' months
                                                                                                          months
                  of
                  of death.

                  CMS       made approximately
                  CMS made approximately $4.4 millon of 
 $4.4 million of unallowable payments on behalf
                                                                                                      behalf of
                                                                                                             of deceased Medicare
                  enrollees to Medicare Advantage organizations for coverage periods after the enrollees'       enrollees' months
                                                                                                                           months
                       death. CMS
                  of death.        CMS made improper payments for         for 2,657
                                                                              2,657 ofthe
                                                                                     ofthe 1.7
                                                                                           1.7 milion
                                                                                               milliondeceased
                                                                                                       deceased enrollees
                                                                                                                 enrollees (far
                                                                                                                            (far less
                                                                                                                                 less
                  than     1 percent
                  than 1 percent of 
      of the enrollees who died).
                                                                   died). SSA
                                                                           SSA had
                                                                                 had categorized
                                                                                     categorized these
                                                                                                 these enrollees
                                                                                                       enrollees as deceased as as of
                  June     1,2007.
                  June 1,2007. As of
     As of September 2007, $4,414,643 in improper payments remained uncollected.
Page 2 – Charlene Frizzera


Although CMS had correctly stopped payments for the vast majority of the deceased enrollees,
its systems did not identify and prevent all of the improper payments.

We recommend that CMS:

   •   recoup the $4,414,643 in payments for deceased Medicare enrollees, based on the
       information relayed in this report, and

   •   implement system enhancements to prevent and detect improper payments in the future.

In written comments on our draft report, CMS stated that it concurred with our
recommendations. However, with respect to our first recommendation, CMS said that it had
recovered $3,500,185 in payments but would not recoup the full $4,414,643 because “. . . CMS
does not adjust plan payments more than three years after CMS is made aware that there is an
issue that may require a payment adjustment.” With respect to our second recommendation,
CMS said that it had two procedures in place designed to prevent improper payments and, in
response to our request, separately provided detailed descriptions of the procedures.

We continue to recommend that CMS recoup the full $4,414,643. After reviewing the detailed
descriptions of CMS’s procedures, we revised our second recommendation.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov.
Please refer to report number A-07-07-01046 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




         REVIEW OF
    MEDICARE PAYMENTS TO
    MANAGED CARE PLANS
        ON BEHALF OF
    DECEASED ENROLLEES




                    Daniel R. Levinson
                     Inspector General

                       March 2009
                      A-07-07-01046
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Medicare Part C offers Medicare beneficiaries managed care options for health care coverage.
Title II of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 revised
Medicare Part C and established the Medicare Advantage program.

The Centers for Medicare & Medicaid Services (CMS) makes payments at the beginning of each
month to Medicare Advantage organizations for medical services provided to individuals
enrolled in Medicare Advantage plans. After an enrollee dies, the last allowable payment is for
the month in which the enrollee died. CMS has systems that identify deceased enrollees to
initiate disenrollment and prevent improper payments made to Medicare Advantage
organizations for the months following the enrollees’ deaths.

For the period January 2003 through April 2007, approximately 1.7 million Medicare enrollees
(as identified on the Social Security Administration’s (SSA) systems) who had at some point
been enrolled in a Medicare Advantage organization died.

OBJECTIVE

Our objective was to determine whether CMS made payments on behalf of deceased Medicare
enrollees to Medicare Advantage organizations for coverage periods after the enrollees’ months
of death.

SUMMARY OF FINDING

CMS made approximately $4.4 million of unallowable payments on behalf of deceased Medicare
enrollees to Medicare Advantage organizations for coverage periods after the enrollees’ months
of death. CMS made improper payments for 2,657 of the 1.7 million deceased enrollees (far less
than 1 percent of the enrollees who died). SSA had categorized these enrollees as deceased as of
June 1, 2007. As of September 2007, $4,414,643 in improper payments remained uncollected.
Although CMS had correctly stopped payments for the vast majority of the deceased enrollees,
its systems did not identify and prevent all of the improper payments.

RECOMMENDATIONS

We recommend that CMS:

   •   recoup the $4,414,643 in payments for deceased Medicare enrollees, based on the
       information relayed in this report, and

   •   implement system enhancements to prevent and detect improper payments in the future.




                                               i
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS stated that it concurred with our
recommendations. However, with respect to our first recommendation, CMS said that it had
recovered $3,500,185 in payments but would not recoup the full $4,414,643 because “. . . CMS
does not adjust plan payments more than three years after CMS is made aware that there is an
issue that may require a payment adjustment.” With respect to our second recommendation,
CMS said that it had two procedures in place designed to prevent improper payments and, in
response to our request, separately provided detailed descriptions of the procedures.

CMS’s comments, excluding technical comments, are included as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We continue to recommend that CMS recoup the full $4,414,643. After reviewing the detailed
descriptions of CMS’s procedures, we revised our second recommendation.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Advantage Program .............................................................................1
              Disenrollment From Medicare Advantage Organizations
                for Deceased Enrollees .....................................................................................1
              Previous Audit Report..........................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope....................................................................................................................3
               Methodology ........................................................................................................3

FINDING AND RECOMMENDATIONS...............................................................................4

          PAYMENTS FOR DECEASED MEDICARE ENROLLEES........................................4
              Federal Requirements ..........................................................................................4
              Improper Payments ..............................................................................................5

          RECOMMENDATIONS.................................................................................................5

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ....................5

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................6

APPENDIX

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Medicare Advantage Program

The Balanced Budget Act of 1997 1 established Medicare Part C, which offers Medicare
beneficiaries managed care options through the Medicare+Choice program. The Medicare
Prescription Drug, Improvement, and Modernization Act of 2003 2 revised Medicare Part C and
renamed the Medicare+Choice program the Medicare Advantage program. Entities that provide
the Medicare-covered services to Part C enrollees are called Medicare Advantage organizations.
The law permits beneficiaries to receive health care coverage from Medicare Advantage plans
(such as, for example, health maintenance organizations, preferred provider organizations, and
provider-sponsored organizations) offered by Medicare Advantage organizations.

The Centers for Medicare & Medicaid Services (CMS) makes payments at the beginning of each
month to Medicare Advantage organizations for medical services provided to individuals
enrolled in Medicare Advantage plans. (Because each Medicare Advantage organization can
offer more than one plan to its enrollees, this report refers to beneficiary enrollment in the
context of Medicare Advantage organizations instead of their individual plans.) The amount of
the payments may be different for each enrollee. To calculate the payment, CMS uses a process
that incorporates each enrollee’s demographic and health status information. CMS calculates the
payment with the most current information available when it makes payments to the Medicare
Advantage organizations. If CMS receives demographic or health status information that would
either increase or decrease the previous monthly payments, it makes retroactive adjustments to
correct the payment level. CMS adjusts the payments monthly, as necessary, on both a
prospective basis and a retrospective basis to the beginning of the year. Thus, CMS routinely
makes multiple payment adjustments after the initial payment for Medicare enrollees.

Pursuant to Federal regulations, after an enrollee dies, the last allowable payment is for the
month in which the enrollee died. For deceased enrollees, CMS makes adjustments to correct
the payment levels for the months in which the individual had, before his or her death, been
enrolled in the Medicare Advantage organization. CMS also retroactively recoups any payments
made to Medicare Advantage organizations on the behalf of deceased enrollees for the months
after the enrollees’ deaths.

Disenrollment From Medicare Advantage Organizations
for Deceased Enrollees

The Social Security Administration (SSA) is CMS’s primary source of information about
deceased enrollees. To identify these deceased individuals, CMS’s Enrollment Database (EDB)
interfaces with SSA’s systems. CMS then records the date of death into a database table that is a

1
 The Balanced Budget Act of 1997, P.L. No. 105-33, § 4001 (codified at Social Security Act §§ 1851–1859,
42 U.S.C. §§ 1395w-21–1395w-28).
2
    The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173, Title II.


                                                          1
part of CMS’s Common Tables data structure. The date of death is then accessible by several
applications, including the EDB, the Medicare Beneficiary Database (MBD), the Medicare
Advantage and Prescription Drug (MARx) system, and the Common Working File. 3 These
applications interact to process the disenrollment for a deceased enrollee.

The EDB is CMS’s system of record—its authoritative source of Medicare entitlement
information for the entire population of past and present Medicare beneficiaries. The MARx
application is the system of record that maintains information as to when Medicare beneficiaries
enroll in or disenroll from a Medicare Advantage program. Both the entitlement information and
the managed care enrollment periods are contained within the Common Tables data structure.
As dates of death are posted to the Common Tables data store, the MBD output provides the
information to the MARx system, which is used to process all enrollment in and disenrollment
from the Medicare Part C program. 4 The MARx system also contains the related payment
history, including adjustments, that shows the specific months for which CMS made a payment
to a Medicare Advantage organization for each enrollee.

Thus, when a date of death is posted into the Common Tables database table (via the EDB’s
interface with SSA), the MBD output notifies the MARx system of the date of death, and the
MARx system will disenroll the beneficiary from the Medicare Advantage organization at the
end of the month in which the death occurred. The payments, including adjustments that CMS
made on behalf of the deceased enrollee both for the periods before and after the enrollee died,
are included in the MARx system. This process allows CMS to prevent and, if necessary, recoup
payments made to Medicare Advantage organizations for the months following an enrollee’s
death.

For the period January 2003 through April 2007, approximately 1.7 million Medicare enrollees
who had at some point been enrolled in a Medicare Advantage organization died. 5

Previous Audit Report

We issued a report to CMS in May 2001 (A-07-99-01298) identifying $3.2 million of improper
payments for deceased enrollees who had been enrolled in Medicare managed care
organizations. We recommended that CMS recoup the $3.2 million of improper payments.




3
 The Common Working File is CMS’s system that fiscal intermediaries and carriers use to process fee-for-service
claims.
4
 The MARx system also processes enrollment/disenrollment transactions for the Medicare Part D program. We are
auditing payments made after the month of death of Medicare beneficiaries in the Part D program as part of a
separate audit (A-05-08-00047).
5
 Although all of these individuals had been enrolled in a Medicare Advantage organization for at least 1 month
before their deaths, some of them may have disenrolled and switched to traditional Medicare (fee-for-service) before
they died.


                                                         2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CMS made payments on behalf of deceased Medicare
enrollees to Medicare Advantage organizations for coverage periods after the enrollees’ months
of death.

Scope

Our audit included Medicare Part C payments made during January 2006 through September
2007 for approximately 1.7 million Medicare Advantage organization enrollees who, according
to SSA, died between January 1, 2003, and April 30, 2007. These enrollees either were or had
been enrolled in a Medicare Advantage organization. 6 For purposes of this audit, we considered
an improper payment to be a payment that CMS (1) made to a Medicare Advantage organization
for coverage in months after an enrollee’s month of death and (2) did not fully recoup and that
therefore (as of September 2007) remained uncollected.

We reviewed the internal controls at CMS to the extent necessary to accomplish the audit
objective. To identify any improper payments, we relied on the accuracy and completeness of
the information contained in the CMS databases discussed earlier. Accordingly, we did not
review or test the accuracy or completeness of those databases.

We performed our fieldwork at the Jefferson City, Missouri, and Kansas City, Missouri, field
offices during December 2007.

Methodology

To accomplish our objective:

        •    We reviewed Federal regulations and CMS’s policies and procedures for payments on
             behalf of Medicare beneficiaries enrolled in Medicare Advantage organizations.

        •    We identified enrollees:

             o who, according to SSA’s computer database systems as of June 1, 2007, died
               between January 1, 2003, and April 30, 2007;

             o who, according to CMS’s EDB, either were or had been enrolled in a Medicare
               Advantage organization; and
6
 Our review included payments made for individuals enrolled in the Programs of All-Inclusive Care for the Elderly
(PACE), which is an optional benefit under both Medicare and Medicaid that, in specific geographic areas, provides
comprehensive medical and social services to the elderly. Although PACE is a separate program from the Medicare
Advantage program, it employs a similar payment methodology pursuant to 42 CFR §§ 460.180(a) and
460.180(b)(7). Accordingly, for purposes of this audit, the approximately 1.7 million individuals whom we
identified as deceased Medicare Advantage organization enrollees include some deceased Medicare PACE
enrollees.


                                                        3
             o for whom CMS made payments to a Medicare Advantage organization for 1 or
               more months after the enrollee died, as shown on the MARx system during the
               period January 2006 through September 2007 (the most recent information
               available at the time we performed our data match). 7

        •    We verified the enrollees’ dates of death by comparing data from SSA’s systems to
             data, as of April 1, 2008, from either the EDB or the Common Working File.

        •    We used the MARx system to calculate, for each of the enrollees for whom payments
             (including adjustments) were made for coverage in months after the enrollee died, the
             total amount of improper payments made to Medicare Advantage organizations.

        •    We discussed the results of our review with CMS officials and provided them with
             spreadsheets that identified each of the improper payments.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                               FINDING AND RECOMMENDATIONS

CMS made approximately $4.4 million of unallowable payments on behalf of deceased Medicare
enrollees to Medicare Advantage organizations for coverage periods after the enrollees’ months
of death. CMS made improper payments for 2,657 of the 1.7 million deceased enrollees (far less
than 1 percent of the enrollees who died). SSA had categorized these enrollees as deceased as of
June 1, 2007. As of September 2007, $4,414,643 in improper payments remained uncollected.
Although CMS had correctly stopped payments for the vast majority of the deceased enrollees,
its systems did not identify and prevent all of the improper payments.

PAYMENTS FOR DECEASED MEDICARE ENROLLEES

Federal Requirements

Pursuant to Federal requirements (42 CFR § 422.74(d)(6)): “If the [Medicare Advantage
enrollee] dies, disenrollment is effective the first day of the calendar month following the month
of death.” 8 Therefore, the last allowable payment on behalf of an enrollee who has died is for
the month in which the enrollee died.



7
 These payment files included retroactive adjustments that extended back to January 2003 and continued through
September 2007.
8
 For PACE enrollees, Federal requirements (42 CFR § 460.160(a)) provide that “[e]nrollment continues until the
participant’s death . . . .”


                                                        4
Improper Payments

CMS improperly made payments to Medicare Advantage organizations for 2,657 deceased
enrollees. CMS’s systems are designed to interact with SSA systems each month to identify
deceased enrollees. Nevertheless, some of the enrollees who died during the period of
January 2003 through April 2007 and on whose behalf payments were made had been deceased
for at least 2 years, as depicted in the following table:

                     Deceased Beneficiaries With Uncollected Improper Payments
                                        as of September 2007
                                         Year of      Number of
                                   Enrollee’s Death Enrollees
                                          2003             54
                                          2004            823
                                          2005            242
                                          2006          1,476
                                          2007             62
                                          Total         2,657

Each of these enrollees was categorized as deceased in SSA’s computer database systems as of
June 1, 2007. As of September 2007, CMS’s payment systems showed $4,414,643 in improper
payments to the Medicare Advantage organizations that remained uncollected. 9

Our analysis of the payment files also found that CMS made several adjustments to recoup
payments made incorrectly after the months in which the enrollees died. Specifically, CMS
either made the correct payments or appropriately recovered payments in well over 99 percent of
the instances in which the Medicare enrollees died.

We have provided CMS officials with copies of payment records for each of the 2,657 enrollees
identified in this report.

RECOMMENDATIONS

We recommend that CMS:

       •   recoup the $4,414,643 in payments for deceased Medicare enrollees, based on the
           information relayed in this report, and

       •   implement system enhancements to prevent and detect improper payments in the future.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS stated that it concurred with our
recommendations. However, with respect to our first recommendation, CMS said that it had

9
    This amount included $145,007 in improper payments to PACE organizations that remained uncollected.


                                                         5
recovered $3,500,185 in payments but would not recoup the full $4,414,643 because “. . . CMS
does not adjust plan payments more than three years after CMS is made aware that there is an
issue that may require a payment adjustment.”

With respect to our second recommendation, CMS said that it had two procedures in place: a
new monthly check for the date of death before the MARx system calculates plan payments and
an ongoing check for the date of death as part of the prospective payment validation process. In
response to our request, CMS separately provided detailed descriptions of its procedures
designed to prevent improper payments.

CMS also provided technical comments, which we addressed as appropriate. CMS’s comments,
excluding technical comments, are included as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

CMS made the payments that we are questioning between January 2006 and September 2007,
and we informed CMS of this issue during 2008. Therefore, CMS was aware of the need to
adjust the payments less than 3 years ago. Further, CMS did not provide evidence that the
$914,458 balance was not owed to the Medicare program under policy, regulation, or law. We
continue to recommend that CMS recoup the full $4,414,643.

After reviewing the detailed descriptions of CMS’s procedures, we revised our second
recommendation.




                                                6
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
